KING & Sp ALDING King & Spalding LLP

1700 Pennsylvania Ave, NW
Suite 200

Washington, D.C. 20006-4707
Tel: +1 202 737 0500

Fax: +1 202 626 3737
www.kslaw.com

Jeffrey S. Bucholtz

Direct Dial: +1 202 626 2907
Direct Fax: +1 202 626 3737
jbucholtz@kslaw.com

October 13, 2020

VIA ELECTRONIC FILING
Hon. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: — Extension Request in Bozeman Fin. LLC y. Fed. Reserve Bank of Ail., et al., No. 20-333
Dear Mr. Harris:

Respondents the Federal Reserve Banks respectfully request a 30-day extension of the
time in which to file their brief in opposition to Bozeman Financial’s petition for certiorari in the
above-captioned case. See S. Ct. R. 30.4. If this request is granted, respondents’ brief in
opposition would be due November 27, 2020.

Good cause exists for this extension, including the press of other work, the need to

coordinate with the twelve Federal Reserve Banks on the brief in opposition, and difficulties
related to the COVID-19 pandemic. See Order (Mar. 19, 2020). Bozeman Financial takes no

position on this request.
tfylly submitted,
by S. Bucholtz .

‘ounsel of Record for Respondents

Resp

   
   

ce: Scott E. Gant
Counsel of Record for Petitioner
Boies Schiller Flexner LLP
1401 New York Avenue, NW
Washington, DC 20005
(202) 237-2727
sgant@bsfllp.com
